TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Improved Controls Over Grants Provided to
                  Low Income Taxpayer Clinics Would Lower
                 the Risk of the Inappropriate Use of Federal
                              Government Funds



                                           July 31, 2008

                              Reference Number: 2008-10-142




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(e) = Law Enforcement Procedure(s)
 5 = Information Concerning a Pending Law Enforcement Proceeding

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 31, 2008


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Improved Controls Over Grants Provided to Low
                               Income Taxpayer Clinics Would Lower the Risk of the Inappropriate
                               Use of Federal Government Funds (Audit # 200710009)

 This report presents the results of our review to determine whether clinics participating in the
 Internal Revenue Service’s (IRS) Low Income Taxpayer Clinic (LITC) program complied with
 the grant terms and conditions and the applicable laws and regulations related to the management
 of Federal Government funds. This audit was conducted as part of our Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 For the 2006 grant cycle,1 the IRS awarded $8 million in Federal Government grants to 1492
 taxpayer clinics. These clinics provide education to taxpayers who speak English as a second
 language and assist low-income taxpayers involved in controversies with the IRS by protecting
 their rights and helping to ensure fair results. However, we found that controls over the financial
 management of the LITC program need to be improved to ensure that clinics submit complete
 and accurate year-end financial reports in a timely manner. Without adequate controls, the IRS
 cannot ensure that the clinics are properly using Federal grant monies.




 1
   Although Congress appropriates funds to the LITC program on a fiscal year basis, clinics participating in the LITC
 program are awarded funds on a calendar year basis, known as the “grant cycle.”
 2
   This total does not include one 2006 grant cycle grantee whose award was terminated before the disbursement of
 any funds.
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds


Second, a program of regularly scheduled, comprehensive reviews of clinic year-end financial
information needs to be implemented to ensure that reported expenses are adequately supported
and allowable under LITC program guidelines. We did not find evidence that a comprehensive
review of a clinic’s reported expenditures and matching contributions was performed for any
clinic that received funds in the 2006 grant cycle. The IRS awarded 149 LITC program grants in
the 2006 grant cycle.
Finally, additional guidance for clinics is needed to ensure that clinics are properly managing and
reporting on their use of grant funds. The primary source of both operational and financial
guidance for LITC program participants is the LITC Low Income Tax Clinic Grant Application
Package and Guidelines (Publication 3319). Publication 3319 describes the information and
records the clinics need to maintain to account for expenses incurred using the grant funds and to
account for the matching funds received. However, we found that 7 (58 percent) of the
12 clinics sampled reported expenses or matching contributions on their 2006 year-end financial
report that were not supported by complete and reliable documentation or were not allowable
expenses under LITC program grant guidelines. Specifically, clinics 1) did not always use a
consistent methodology to substantiate reported salary expenses, 2) reported expenses or
matching contributions related to expenditures which are not allowable under LITC program
guidelines, and 3) did not always maintain adequate documentation to substantiate volunteer
services. The IRS cannot ensure that the clinics are adequately managing their grant funds
without both establishing clear guidelines regarding documentation and calculation of expenses
and taking proactive steps to ensure that clinics understand and are following these guidelines.

Recommendations
We recommended that the National Taxpayer Advocate, in coordination with the IRS Office of
Chief Counsel, develop and implement procedures to address instances in which grant funds
have been disbursed to a clinic that cannot, or will not, document that grant funds were used
appropriately. We also recommended that the National Taxpayer Advocate 1) take appropriate
action to address the noncompliance of the 3 clinics which failed to provide support for $43,577
in grant funds they received, 2) develop and implement a process for conducting random onsite
financial reviews of a sample of participating clinics, 3) update the guidelines provided to
program participants to include information regarding the performance of periodic grant audits or
reviews by the IRS and the potential disallowance and recovery of improper/unsupported costs
identified as a result of these reviews, 4) revise and expand the instructions and guidelines
provided to clinics participating in the LITC program, 5) re-emphasize the documentation
requirements for volunteer services to all current program participants, 6) and take appropriate
follow-up action regarding $17,750 of expenditures reported by clinics that are not allowable per
LITC program guidelines.



                                                                                                 3
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



Response
The National Taxpayer Advocate generally agreed with all of our recommendations. The LITC
Program office has developed and implemented procedures for following up with grantees that
have not filed required reports in a timely or complete manner, and the National Taxpayer
Advocate is considering sending demand letters to the three clinics in question. In addition, the
LITC Program office has developed and is implementing procedures to randomly sample
invoices and receipts during site-assistance visits. The National Taxpayer Advocate noted,
however, that the LITC Program office lacks individuals experienced with in-depth financial
audits and lacks the personnel needed for a substantive financial review. If the sampling of
invoices and receipts yields results that require a deeper review, the program office will refer
those cases up the chain of command, and where appropriate, to the Treasury Inspector General
for Tax Administration. Clearer language regarding the possible disallowance and recovery of
improper grant fund expenditures will be included in future instructions and will be highlighted
at the next annual LITC conference. The LITC Program office will also work to make
requirements regarding the calculation and documentation of salary expenses clearer through
edits to Publication 3319 and will discuss them at the annual LITC conference. In addition, the
LITC Program office is developing clinic guidelines regarding the documentation of volunteer
services. Finally, the LITC Program office will determine how best to address the unallowable
expenditures of grant funds, including identifying unclaimed allowable expenses or recouping
those funds. Clinics will also be made aware of the consequences for unallowable expenses at
the next annual LITC conference. Management’s complete response to the draft report is
included as Appendix V.

Office of Audit Comment
We concur that the review of clinics’ invoices and receipts during site-assistance visits should
help facilitate early identification of some potential problems. However, because site-assistance
visits are typically performed before clinics are required to submit any financial information
regarding how grant funds were spent, these reviews alone do not provide sufficient assurance
that the financial information reported by clinics is accurate. We do not believe that periodically
performing reviews focused on verifying the financial information reported by clinics to
supporting documentation would be unduly difficult or burdensome, especially if performed on a
sample basis. As such, we believe the National Taxpayer Advocate should reconsider
conducting periodic random reviews of the financial information reported by clinics.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.

                                                                                                    4
                            Improved Controls Over Grants Provided to Low Income
                                Taxpayer Clinics Would Lower the Risk of the
                               Inappropriate Use of Federal Government Funds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Prompt Follow-up Is Needed When Low Income Taxpayer
          Clinics Fail to File All Required Year-end Financial and
          Program Information.....................................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 5

          A Program of Regularly Scheduled, Comprehensive Reviews
          of Low Income Taxpayer Clinic Year-end Financial Information
          Needs to Be Implemented.............................................................................Page 5
                    Recommendation 3:..........................................................Page 6

                    Recommendation 4:..........................................................Page 7

          Additional Guidance Is Needed to Ensure That Low Income
          Taxpayer Clinics Are Properly Managing and Reporting on Their
          Use of Grant Funds .......................................................................................Page 7
                    Recommendations 5 through 7:...........................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
       Improved Controls Over Grants Provided to Low Income
           Taxpayer Clinics Would Lower the Risk of the
          Inappropriate Use of Federal Government Funds




                   Abbreviations

IRS          Internal Revenue Service
LITC         Low Income Taxpayer Clinic
TAS          Taxpayer Advocate Service
                         Improved Controls Over Grants Provided to Low Income
                             Taxpayer Clinics Would Lower the Risk of the
                            Inappropriate Use of Federal Government Funds




                                             Background

The Low Income Taxpayer Clinic (LITC) program was
initiated by a provision of the Internal Revenue Service         Low Income Taxpayer Clinics
(IRS) Restructuring and Reform Act of 19981 to offer                 were created to assist
more assistance to low-income taxpayers involved in             low-income taxpayers involved
controversies with the IRS to protect their rights and to        in controversies with the IRS
help ensure fair results. The LITC program was                   and provide tax education for
                                                               taxpayers who speak English as
designed to provide low-income taxpayers who are                      a second language.
involved in tax disputes with free or nominal cost legal
assistance. Another goal of the LITC program is to
provide education and outreach to taxpayers who speak English as a second language by
informing them of their tax rights and responsibilities. As such, the LITC program serves a
valuable role in the IRS’ efforts to provide quality taxpayer service and ensure compliance with
the tax laws.
Because clinics represent low-income taxpayers before the IRS during disputes involving audits,
appeals and collection issues, and matters before the United States Tax Court, the clinics are
required to include a Qualified Tax Expert – generally a tax attorney, Certified Public
Accountant, or an Enrolled Agent on their staff. The LITC program is not intended to help
taxpayers prepare their tax returns. Clinics are only allowed to prepare tax returns if it is
ancillary to the education of a taxpayer for whom English is a second language and/or when it is
necessary to resolve a taxpayer’s controversy with the IRS.
The IRS administers the LITC grant program by providing Federal grant money, on a
calendar year basis,2 to clinics that apply for the program each year and agree to provide tax
services to low-income taxpayers. These clinics involve a variety of organizations, including
accredited law schools, business schools, and 501(c) nonprofit organizations. The IRS provides
grant funds up to $100,000 for each clinic. Participating clinics are required to provide matching
funds on a dollar-for-dollar basis for all grant funds received. Matching funds can include
salaries and the value of volunteer services of individuals performing services for the clinic.
Since the inception of the program, the total funding for grants has increased significantly. In
1999, the funding for grants was $1.5 million to 34 clinics in 19 States. During the 2006 grant



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Although Congress appropriates funds to the LITC program on a fiscal year basis, clinics participating in the LITC
program are awarded funds on a calendar year basis, known as the “grant cycle.”
                                                                                                            Page 1
                        Improved Controls Over Grants Provided to Low Income
                            Taxpayer Clinics Would Lower the Risk of the
                           Inappropriate Use of Federal Government Funds



cycle, funding for grants totaled $8 million for 1493 clinics representing 50 States plus the
District of Columbia and Puerto Rico. Because the LITC program uses Federal grants, clinics
must demonstrate that they have adequate internal controls in place to ensure that grant
expenditures are allowable, authorized, and allocable to the program. Clinics must also submit
to the IRS year-end financial statements along with a narrative describing their goals, strategy,
and program results. Failure to submit the required financial reports could result in a loss of
further funding for the clinic.
This review was performed at the Charlottesville, Virginia; Columbus, Ohio;
Concord, New Hampshire; Corpus Christi, Texas; Dallas, Texas; Pittsburgh, Pennsylvania;
San Diego, California; Santa Ana, California; Washington, D.C.; Weslaco, Texas;
Wichita, Kansas; and Wilmington, Delaware, LITCs. This review was also performed at the
Health and Human Services Department and Taxpayer Advocate Service National Headquarters
in Washington, D.C., during the period July 2007 through March 2008. This review focused on
the financial controls over the grant money disbursed by the IRS to participating clinics. We did
not review the quality of the performance of services provided to taxpayers by participating
clinics. We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 This total does not include one 2006 grant cycle grantee whose award was terminated before the disbursement of
any funds.
                                                                                                         Page 2
                       Improved Controls Over Grants Provided to Low Income
                           Taxpayer Clinics Would Lower the Risk of the
                          Inappropriate Use of Federal Government Funds




                                   Results of Review

For the 2006 grant cycle, the IRS awarded grants totaling $8 million to 149 clinics. As of
July 2007, $7.7 million had been disbursed. Based on our review of the financial reports
submitted by the clinics and the IRS’ financial management oversight of the clinics’
expenditures, we could not always determine whether the clinics were properly using grant
funds. Without improved controls over the grant funds, the IRS maintains the risk of
inappropriate use of Federal Government funds. We found that controls over the financial
management of the LITC program need to be improved in three key areas. Specifically:
    •   Prompt follow-up is needed when clinics fail to file all required year-end financial and
        program information.
    •   A program of regularly scheduled, comprehensive reviews of clinic year-end financial
        information needs to be implemented.
    •   Additional guidance is needed to ensure that clinics are properly managing and reporting
        on their use of grant funds.

Prompt Follow-up Is Needed When Low Income Taxpayer Clinics Fail
to File All Required Year-end Financial and Program Information
LITC program guidelines require that participating clinics submit a year-end financial report
(Standard Form 269) and supporting financial narrative by March 31st after the year the grant
funds were received. The supporting financial narrative should contain a detailed breakdown of
actual expenses incurred during the grant cycle and the source and amount of matching funds
received for the program. However, in a Treasury Inspector General for Tax Administration
review4 of the LITC program performed in Fiscal Year 2005, we identified that many clinics did
not submit their required program reports in a timely manner. In response, the Taxpayer
Advocate Service (TAS) stated that it would review and strengthen its procedures for following
up on late reports and for taking the necessary corrective actions.
Our review of the LITC 2006 grant cycle identified that the LITC Program office still had not
developed effective controls to ensure that follow-up contact was routinely conducted with
clinics that did not submit their program reports in a timely manner. We found that
98 (66 percent) of the 149 clinics that were awarded grants for the 2006 grant cycle still had not
submitted all required year-end financial and program information as of August 2007, 4 months

4
 Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low Income
Taxpayer Clinic Grant Program (Reference Number 2005-10-129, dated September 2005).
                                                                                                      Page 3
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



Recommendations
Recommendation 1: The National Taxpayer Advocate, in coordination with the IRS Office
of Chief Counsel, should develop and implement procedures to address instances in which grant
funds have been disbursed to a clinic that cannot, or will not, document that grant funds were
used appropriately.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation. The LITC Program office has developed and implemented procedures
       for following up with clinics that fail to file interim and year-end reports in a timely or
       complete manner. The LITC Program office will also continue to publicize the problem
       of late and incomplete reports and stress their importance during site-assistance visits,
       through periodic communications, and at the annual LITC conference.
Recommendation 2: The National Taxpayer Advocate should take appropriate action to
address the noncompliance of the 3 clinics which failed to provide support for $43,577 in grant
funds.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation and is considering sending demand letters to the three clinics in
       question.

A Program of Regularly Scheduled, Comprehensive Reviews of Low
Income Taxpayer Clinic Year-end Financial Information Needs to Be
Implemented
As discussed previously, the clinics are required to submit annual financial reports regarding
grant expenses and matching contributions. These financial reports, along with the program
narrative, contain the total amount of grant funds expended and a breakdown listing the services
and items purchased with grant funds or contributed as a matching donation. Clinics are not
required to submit any accompanying documentation, such as invoices or receipts, with the
financial reports and program narrative to substantiate the information reported in those
documents. In the Fiscal Year 2005 Treasury Inspector General for Tax Administration review
of the LITC program, we identified that clinic program and financial reports were not subject to
periodic review. In response to the Fiscal Year 2005 review, the TAS developed a three-tier site
assistance process intended to ensure that clinics are complying with the terms and conditions of
the LITC program. One of the key objectives of this process is to ensure that clinics use grant
funds appropriately.
However, we did not find any evidence that a review of a clinic’s reported expenditures and
matching contributions was performed to ensure that reported expenses are adequately supported
and allowable for any of the clinics which received funds during the 2006 grant cycle. The IRS
awarded 149 LITC grants in the 2006 grant cycle.
                                                                                            Page 5
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



The TAS informed us that in the 2006 grant cycle it began performing onsite reviews of the
financial internal controls of clinics new to the LITC program. In addition, if the TAS finds
during the performance of a general site visit that a clinic is not adhering to basic LITC program
guidelines, a more comprehensive onsite review of clinic operations, including a review of
financial internal controls, will be performed. To assist in conducting the comprehensive
financial reviews, the TAS developed a checklist to be used by program analysts conducting
field visitations to review clinics’ financial internal controls. The checklist includes reviewing
compliance with basic financial requirements such as an effective system of control and
accountability for funds and property. The checklist does not specifically require the
documented review of a sample of clinics’ reported expenditures and matching contributions
with supporting documents, such as invoices or receipts.
However, although the TAS records indicated it performed onsite visitations to 11 clinics that
were new for the 2006 grant cycle, we found that a documented assessment of financial controls
was not completed for any of these clinics. Further, we did not find any evidence that a
documented review of a sample of participating clinics’ reported expenditures and matching
contributions with supporting documents was performed for any of these 11 clinics. Finally, we
found that the program guidelines, which are provided to all grant recipients, do not include any
information regarding the performance of grant audits or reviews by the IRS and the potential
disallowance of improper/unsupported costs. Providing this information to the clinics could
increase their awareness of the IRS’ program review authority and lead to increased compliance
with program requirements.
Without a system of periodic reviews of the supporting documentation of reported financial
transactions relating to LITC program grant funds, the IRS has no effective way of ensuring that
1) financial information reported by clinics is accurate and 2) Federally provided grant funds are
used only for appropriate purposes.

Recommendations
Recommendation 3: The National Taxpayer Advocate should develop and implement a
process to conduct periodic random onsite financial reviews of a sample of clinics. The financial
reviews should include the verification of a sample of reported expenditures with source
documents, such as invoices and receipts.
       Management’s Response: The National Taxpayer Advocate partially agreed with
       this recommendation. The LITC Program office has developed and is implementing
       procedures to randomly sample invoices and receipts during site-assistance visits. If the
       sampling of invoices and receipts during site-assistance visits yields results that require a
       deeper review, the Program office will refer those cases up the chain of command. The
       National Taxpayer Advocate noted, however, that the LITC Program office lacks


                                                                                              Page 6
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



       individuals experienced with in-depth financial audits and lacks the personnel needed for
       a substantive financial review.
       Office of Audit Comment: We concur that the review of clinics’ invoices and
       receipts during site-assistance visits should help facilitate early identification of some
       potential problems. However, because site-assistance visits are typically performed
       before clinics are required to submit any financial information regarding how grant funds
       were spent, these reviews alone do not provide sufficient assurance that financial
       information reported by clinics is accurate. We do not believe that periodically
       performing reviews focused on verifying the financial information reported by clinics to
       supporting documentation would be unduly difficult or burdensome, especially if
       performed on a sample basis. As such, we believe the National Taxpayer Advocate
       should reconsider conducting periodic random reviews of the financial information
       reported by clinics.
Recommendation 4: The National Taxpayer Advocate should update the guidelines provided
to program participants to include information regarding the performance of periodic grant audits
or reviews by the IRS and the potential disallowance and recovery of improper/unsupported
costs identified as a result of these reviews.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation. The LITC Low Income Tax Clinic Grant Application Package and
       Guidelines (Publication 3319) has been updated and now includes language referring to
       periodic sampling and verification of expenses. The LITC Program office will draw
       attention to the periodic reviews and audits during upcoming LITC conferences. The
       LITC Program office will include clearer language regarding the possible disallowance
       and recovery of improper grant fund expenditures in future versions of Publication 3319
       and will also highlight this information at the next annual LITC conference and during
       site-assistance visits.

Additional Guidance Is Needed to Ensure That Low Income Taxpayer
Clinics Are Properly Managing and Reporting on Their Use of Grant
Funds
Another requirement of the financial reports is to include a detailed breakdown of actual
expenses incurred during the grant cycle and the source and amount of matching contributions
provided by the grant recipient. Clinics are required to match the amount granted to them on a
dollar-for-dollar basis. The primary source of both operational and financial guidance for LITC
program participants is Publication 3319. Publication 3319 describes the information and
records the clinics need to maintain to account for expenses incurred using the grant funds and to
account for the matching funds received. Clinics that fail to comply with the terms of the grant


                                                                                           Page 7
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



guidelines, including required documentation of expenses and matching contributions, are
subject to administrative remedies, including suspension or termination of the grant award.
We found that 7 (58 percent) of the 12 clinics sampled reported expenses or matching
contributions on their 2006 year-end financial report that were not supported by complete and
reliable documentation or were not allowable expenses under LITC program grant guidelines.
Specifically:
   •   Six (50 percent) of the 12 clinics did not utilize an appropriate or consistent methodology
       to substantiate the reported time spent on LITC program-related activities and charged
       against the grant as salary or payroll expense. These clinics were not able to provide
       documentation, such as time and attendance reports or log books, linking the reported
       salary or payroll expense to LITC program-related activities for all staff performing LITC
       program-related activities. In general, the year-end salary expense amount reported by
       these clinics was based on a best guess estimate of anticipated LITC program-related
       staff time that was made at the beginning of the grant year. As a result, we were unable
       to reliably determine the correct amount of salary expense which should have been
       reported by these clinics. The total salary expense reported by the 6 clinics was
       approximately $321,000. Three of these 6 clinics also reported an additional $194,000 in
       salary expense as a matching contribution. We were similarly unable to verify the
       accuracy of this amount.
   •   Three (25 percent) of the 12 clinics reported either expenses or matching contributions
       totaling $17,750 related to expenditures which are not allowable under LITC program
       guidelines. These expenses and matching contributions included transactions applied to
       the 2006 grant cycle that actually occurred in the 2005 or 2007 grant cycle. The clinics
       also included student volunteer hours used to receive academic credit as a matching
       contribution, which is not allowable under LITC program guidelines.
   •   Two (17 percent) of the 12 clinics did not maintain complete and adequate
       documentation to substantiate volunteer services reported as matching contributions.
       LITC program guidelines require that all volunteer services reported as a matching
       contribution be supported by adequate documentation to substantiate volunteer services.
       One clinic did not have any documentation for a portion of reported volunteer services.
       The other clinic maintained only a summary schedule of hours donated. The total value
       of the volunteer services that was not supported by adequate documentation was $57,085.
Although salary expense is frequently the largest single expense reported by the clinics,
Publication 3319 does not include any specific instruction or guidance regarding how this
expense should be calculated and what documentation is required to support this calculation. We
believe that the best approach for addressing clinic compliance with existing financial
requirements such as the standards for recording volunteer hours is the implementation of a
program of regular financial site reviews as discussed previously in this report.

                                                                                           Page 8
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



The IRS cannot ensure that the clinics are adequately managing their grant funds without
establishing clear guidelines regarding documentation and calculation of expenses. The IRS also
needs to take proactive steps to ensure that clinics understand and are following these guidelines.

Recommendations
Recommendation 5: The National Taxpayer Advocate should revise and expand the
instructions and guidelines provided to program participants to include specific guidelines
regarding how salary expense should be calculated. The instructions and guidelines should
describe what documentation is required to support the salary expense calculation. A discussion
of the expanded instructions should also be included as a topic at the next annual LITC program
all clinic conference.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation. The LITC Program office will work to make this information clear to
       participating clinics in subsequent edits to Publication 3319. In addition, this information
       will be discussed at the annual LITC conference and in site-assistance visits.
Recommendation 6: The National Taxpayer Advocate should re-emphasize the
documentation requirements for volunteer services to all current program participants. For
example, the National Taxpayer Advocate could consider including in the LITC program user
guidelines a pro forma volunteer log sheet for use by volunteers/clinics in recording time spent
on LITC program-related activities.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation. The LITC Program office is developing clinic guidelines regarding
       the documentation of volunteer services and will develop a pro forma log sheet and
       instructions that meet the needs of all clinics. This sample log sheet will be incorporated
       into the next Publication 3319.
Recommendation 7: The National Taxpayer Advocate should take appropriate follow-up
action regarding the $17,750 of expenditures reported by clinics which are not allowable per
LITC program guidelines. These actions can range from recouping grant funds, not awarding
future grants, and/or providing technical advice to the clinics, as appropriate.
       Management’s Response: The National Taxpayer Advocate agreed with this
       recommendation. The National Taxpayer Advocate and LITC Program office will
       determine how best to address the unallowable expenditures of grant funds, including
       identifying unclaimed allowable expenses or recouping those funds. Clinics will also
       be made aware of the consequences for unallowable expenses at the next annual LITC
       conference.




                                                                                            Page 9
                        Improved Controls Over Grants Provided to Low Income
                            Taxpayer Clinics Would Lower the Risk of the
                           Inappropriate Use of Federal Government Funds



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether clinics participating in the IRS’
LITC program complied with the grant terms and conditions and the applicable laws and
regulations related to the management of Federal Government funds. To accomplish this
objective, we:
I.      Determined whether the clinics were properly managing grant funds.
        A. Reviewed the applicable legislation, Office of Management and Budget policies, and
           IRS procedures and determined the allowability and allocability of expenses.
        B. Randomly selected a sample of 12 clinics out of a total population of 1491 clinics that
           were in the LITC program in the 2006 grant cycle and determined whether the
           clinics’ reported expenses were allowable, allocable, and reasonable. We used a
           random sample to ensure that each clinic had an equal chance of being selected,
           which enabled us to obtain sufficient evidence to support our results.
II.     Determined whether the clinics were appropriately matching the IRS grant funds.
        A. Reviewed the applicable legislation, Office of Management and Budget policies, IRS
           procedures, and grant applications and determined the requirements for matching
           funds.
        B. Using the same sample as in Step I.B., conducted detailed testing of grant recipients.
III.    Determined whether the IRS has established adequate financial controls to effectively
        administer the LITC grant program and ensured that LITC program transactions were
        accurately recorded.
        A. Analyzed IRS procedures for reviewing year-end financial information submitted by
           the clinics.
        B. Evaluated the methodology the IRS uses to validate, during the site visits, the
           financial information reported by clinics.




1
 This total does not include one 2006 grant cycle grantee whose award was terminated before the disbursement of
any funds.
                                                                                                        Page 10
                       Improved Controls Over Grants Provided to Low Income
                           Taxpayer Clinics Would Lower the Risk of the
                          Inappropriate Use of Federal Government Funds



        C. Reviewed the status of corrective actions taken by the IRS in response to the
           recommendations related to financial management of clinics contained in the
           Treasury Inspector General for Tax Administration September 2005 report.2
        D. Reviewed clinic compliance with grant-related financial information filing
           requirements for all clinics that received grants in the 2005 and/or 2006 grant cycles.




2
 Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low Income
Taxpayer Clinic Grant Program (Reference Number 2005-10-129, dated September 2005).
                                                                                                      Page 11
                   Improved Controls Over Grants Provided to Low Income
                       Taxpayer Clinics Would Lower the Risk of the
                      Inappropriate Use of Federal Government Funds



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
Richard Louden, Senior Auditor
James S. Mills, Jr., Senior Auditor
Kanika Kals, Auditor




                                                                                    Page 12
                   Improved Controls Over Grants Provided to Low Income
                       Taxpayer Clinics Would Lower the Risk of the
                      Inappropriate Use of Federal Government Funds



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy, National Taxpayer Advocate TA
Director, Low Income Taxpayer Clinic Program Office TA:LITC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                       Page 13
                     Improved Controls Over Grants Provided to Low Income
                         Taxpayer Clinics Would Lower the Risk of the
                        Inappropriate Use of Federal Government Funds



how this expense should be calculated and what documentation is needed to support this
calculation. For example, 6 (50 percent) of the 12 clinics we sampled did not utilize an
appropriate or consistent methodology to substantiate the salary expense reported for the
2006 grant year. As a result of the insufficient controls, the IRS does not have assurance that the
total dollar amount of the grants for the LITC program is accurately supported and verified. For
the 2006 grant cycle, the IRS awarded grants totaling $8 million to 149 clinics, and as of July
2007, $7.7 million had been disbursed.




                                                                                           Page 15
      Improved Controls Over Grants Provided to Low Income
          Taxpayer Clinics Would Lower the Risk of the
         Inappropriate Use of Federal Government Funds



                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 16
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 17
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 18
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 20
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 21
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 22
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 23
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 24
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 25
Improved Controls Over Grants Provided to Low Income
    Taxpayer Clinics Would Lower the Risk of the
   Inappropriate Use of Federal Government Funds




                                                   Page 26
